              OFFICE OF
              INSPECTOR GENERAL
              U.S. DEPARTMENT OF THE INTERIOR



                                                                                          September 8, 2014
Memorandum

To:            Rhea Suh
               Assistant Secretary, Policy Management and Budget
                                                     .
From:          Christopher Stubbs fl (}" ~~ ~
               Acting Eastern Regi~r~fl AUCiits, Inspections, and Evaluations

Subject:       Closeout Memorandum - Evaluation of the U.S. Department of the Interior's
               Sustainable-Buildings Initiative
               Assignment No. ER-EV-MOA-0006-2014

        We have completed a review of the U.S. Department of the Interior's (DOl) sustainable-
buildings initiative. Our objective was to determine whether DOl has implemented certain
principles intended to ensure that new, existing, and leased Federal buildings that are more than
5,000 gross square feet in size are sustainable (see Attachment 1).

        During our review, we learned that DOl had implemented a two-phase strategy for
assessing its properties and meeting its sustainable-buildings goals. DOl had already begun the
first phase when the strategy was rejected by the Office of Management and Budget (OMB),
which is working with Federal agencies to help them meet their goals. DOl never launched the
second phase of the strategy. We also learned that DOl will be participating in a pilot program
that will help agencies meet the goals of the initiative. Based on these circumstances, we have
elected to postpone our evaluation until the pilot program's methodologies are established and
we can assess its impact.

Background

        According to the Office of the Federal Environmental Executive, sustainable building
(also known as "green" or "high-performance" building) is "the practice of designing,
constructing, operating, maintaining, and removing buildings in ways that conserve natural
resources and reduce pollution." The goal is to create and maintain buildings that are
sustainable- that use energy, water, and materials in an environmentally responsible manner and
have less of an impact on human health and the environment than conventional construction.

        During the first half of2006, DOl and 20 other Federal agencies signed a memorandum
of understanding titled "Guiding Principles for Federal Leadership in High Performance and
Sustainable Buildings" (see Attachment 2 for a timeline of events). The parties to the
memorandum sought to establish and follow a common set of "Guiding Principles" for
integrated design, energy performance, water conservation, indoor environmental quality, and
materials.



                         Office of Audits, Inspections, and Evaluations   I Herndon, VA
         The five agreed-upon Guiding Principles were to—

         1.   employ integrated design principles;
         2.   optimize energy performance;
         3.   protect and conserve water;
         4.   enhance indoor environmental quality; and
         5.   reduce the environmental impact of materials.

        In October 2009, the President issued Executive Order 13514, “Federal Leadership in
Environmental, Energy, and Economic Performance,” which identifies greenhouse gas reduction
as a Federal priority and requires agencies to implement “high performance sustainable Federal
building design, construction, operation and management, maintenance, and deconstruction.” 1
To qualify as a sustainable building under the Executive Order, a building must exceed 5,000
gross square feet and meet 100 percent of the Guiding Principles. The Executive Order
specifically requires the head of each agency to ensure that at least 15 percent of the agency’s
existing buildings that are over 5,000 gross square feet meet 100 percent of the Guiding
Principles by fiscal year (FY) 2015. (To date, targets and goals for existing buildings have not
been established beyond FY 2015.)

       To evaluate Federal agencies’ performance in implementing the Executive Order, OMB
prepares and publishes an annual scorecard for each agency (see Attachment 3). The OMB
scorecard evaluates the agencies’ performance in seven categories, including one for sustainable
buildings. 2 In each category, Federal agencies are rated “green” for successfully meeting their
annual goals, “yellow” for mixed results, and “red” for unsatisfactory progress. In FY 2013, DOI
received green ratings in all categories except for the sustainable-buildings category, in which it
received a red rating.

        DOI developed a two-phase strategy to meet its 15 percent goal for FY 2015. The first
phase, referred to as “As Sustainable As Possible” (ASAP), sought to assess DOI’s unheated,
uncooled, and unoccupied buildings and qualify them as sustainable. DOI issued the ASAP
strategy to the heads of its bureaus and offices on July 29, 2013; ASAP was scheduled for
completion on November 30, 2013.

        DOI was on track for meeting its FY 2014 goal of 11 percent compliance with the
Guiding Principles, but on April 30, 2014, OMB rejected ASAP as a viable strategy because it
did not capture the “spirit and intent” of Executive Order 13514. Consequently, DOI’s green
score of 11.22 percent for 2014 was reduced to a red score of 2 percent. The second phase of
DOI’s strategy, which was to have assessed DOI’s historical buildings to make them as
sustainable as possible while preserving their historical properties, was never implemented.




1
  Executive Order 13514 builds on and expands the energy reduction and environmental requirements of Executive Order 13423,
“Strengthening Federal Environmental, Energy, and Transportation Management,” issued in January 2007.
2
  The other categories are “Scope 1 and 2 Greenhouse Gas Emission Reduction Target,” “Scope 3 Greenhouse Gas Emission
Reduction Target,” “Reductions in Energy Intensity,” “Use of Renewable Energy,” “Reduction in Potable Water Intensity,” and
“Reduction in Fleet Petroleum Use.”


                                                                                                                          2
        On May 14, 2014, DOI advised us that OMB and the White House’s Council on
Environmental Quality (CEQ) have selected DOI to participate in a pilot program that will use
new methodologies designed to address Federal agencies’ concerns about compliance and enable
the agencies to better meet their sustainable-buildings goals. The start date for the pilot program
has yet to be determined, and the program’s methodologies are not yet publicly available.

Observations

       During the survey phase of our review, we identified two areas that present challenges to
DOI in meeting the intent of Executive Order 13514.

Costs Associated With Making DOI Buildings Sustainable

         Because its in-house expertise in performing assessments is limited, DOI intends to use
contractual help to assess its building inventory and make the upgrades needed to meet the
Guiding Principles. Doing so, however, will be expensive; DOI currently has 3,806 buildings
above 5,000 gross square feet (see Attachment 2) and has projected costs of approximately
$16,000 to assess each building—an estimated total cost of $61 million. DOI officials estimate
that it would cost an additional $500 million to make the necessary building upgrades to meet the
FY 2015 goal established in Executive Order 13514. 3

        DOI does not receive specific line-item funding to implement these upgrades, so its
bureaus and offices must rely on their limited operations and maintenance budgets to meet the
Executive Order’s intent. DOI officials have stated that it is “unrealistic” to spend $561 million
to assess facilities and meet the goal of 15 percent compliance by FY 2015 when this investment
would not even increase the overall life cycle of DOI’s building assets. Furthermore, officials
have said that the sustainable-buildings goals are a lower priority than DOI’s health, life, and
safety goals.

Compliance Concerns

       DOI was not the only department that was unable to meet its OMB scorecard goal for
FY 2013. We compared DOI’s 2013 sustainable-buildings rating to those of 19 other Federal
departments and agencies and found that 15 of the 20 did not achieve their goals (see
Attachment 3).

        A major contributing factor to DOI’s difficulty in meeting its goal appears to be its belief
that the Guiding Principles are too stringent and do not truly represent DOI’s sustainable efforts
to date. DOI has increased the sustainability of buildings in its inventory—for example, some
buildings that were once only 40 percent sustainable are now 80, 90, or even 96 percent
sustainable—yet these buildings are not considered part of the percentage of sustainable
buildings because they do not meet 100 percent of the Guiding Principles’ requirements. In
addition, approximately 23 percent of DOI’s properties (860 of 3,806) are historical and cannot
fully comply with the Guiding Principles.

3
 Examples of upgrades include, but are not limited to, installing water and building level electricity meters to manage water and
energy use.


                                                                                                                                3
Conclusion

       Once the pilot program has been established and its impact can be measured, we will
consider evaluating DOI’s sustainable-buildings initiative again. We appreciate the cooperation
and assistance provided by your staff during our review. If you have any questions, please
contact me at 703-487-8041.


Attachments (3)




                                                                                                  4
                                                                                     Attachment 1


Objective, Scope, and Methodology

       We conducted our evaluation in accordance with the Quality Standards for Inspection and
Evaluation as put forth by the Council of the Inspectors General on Integrity and Efficiency. We
believe that the work we performed provides a reasonable basis for our conclusions and
recommendations.

         Our objective was to determine if the U.S. Department of the Interior (DOI) effectively
implemented the “Guiding Principles for Federal Leadership in High Performance and
Sustainable Buildings” for new, existing, and leased buildings greater than 5,000 gross square
feet in size. We focused our review on the Office of Management and Budget’s (OMB) ratings
of agencies’ efforts to meet sustainability goals for fiscal years (FYs) 2012, 2013, and 2014.

       To meet our objective, we—

       •   reviewed Executive Order 13514, “Federal Leadership in Environmental, Energy, and
           Economic Performance”;
       •   reviewed the memorandum of understanding titled “Guiding Principles for Federal
           Leadership in High Performance and Sustainable Buildings”;
       •   reviewed data from the Federal Real Property Profile;
       •   reviewed DOI’s FY 2012 and 2013 OMB scorecard ratings for sustainable buildings
           and compared them with ratings from 19 other departments;
       •   interviewed OMB personnel;
       •   reviewed steps that DOI is taking to achieve “green” ratings on the annual OMB
           scorecard; and
       •   interviewed key personnel from DOI’s Office of the Secretary and the following
           bureaus:

           o   Bureau of Indian Affairs;
           o   Bureau of Land Management;
           o   Bureau of Reclamation;
           o   Interior Business Center;
           o   National Park Service;
           o   U.S. Fish and Wildlife Service; and
           o   U.S. Geological Survey.




                                                                                                   5
                                                                                                Attachment 2

                                  Sustainable-Buildings Milestones

                             Milestone                                           Date
        Agencies sign memorandum of understanding                      January 23 to May 6, 2006
        establishing Guiding Principles for sustainable
        buildings
        Executive Order 13514 requires Federal buildings                      October 2009
        to meet Guiding Principles
        OMB goal of 7% sustainable buildings                                   FY 2012
        OMB goal of 9%                                                         FY 2013
        DOI memo on sustainable-buildings strategy                          July 29, 2013
        OMB goal of 11%                                                        FY 2014
        “As Sustainable As Possible” (Phase 1) of                         November 30, 2013
        sustainable-buildings strategy scheduled date of
        completion
        DOI planned Phase 2 of sustainable-buildings                        Never developed
        strategy
        OMB goal of 15%                                                        FY 2015
        Initiation of OMB pilot program                                    To be determined

Milestones and events in the sustainable-buildings initiative. Source: U.S. Department of the Interior (DOI)
and the Office of Management and Budget (OMB).

                                           Building Inventory

        Bureau                                                          Number of Buildings
        Bureau of Indian Affairs                                              811
        Bureau of Land Management                                             217
        Bureau of Reclamation                                                 190
        Interior Business Center                                                6
        National Park Service                                                1,875
        U.S. Fish and Wildlife Service                                        655
        U.S. Geological Survey                                                 52
        Total                                                                3,806

DOI’s inventory of buildings over 5,000 gross square feet. Source: The Federal Real Property Profile for
2013, issued by the Department of the Interior’s Office of the Secretary.




                                                                                                               6
                                                                                  Attachment 3

                            Office of Management and Budget
          January 2013 Scorecard Ratings for Sustainable Buildings by Department
                              (Annual Goal: 9% Complete)


 Department Name                                                       Rating*    % Complete
 Department of State                                                    Green         19.23
 Department of Agriculture                                              Green         11.37
 General Services Administration                                        Green         10.80
 Environmental Protection Agency                                        Green          9.80
 Department of Veterans Affairs                                         Green          9.21
 National Aeronautics and Space Administration                        Yellow**        12.81
 Department of the Treasury                                           Yellow**        11.02
 Department of Commerce                                                     Red        7.65
 National Archives and Records Administration                               Red        4.17
 Department of Justice                                                      Red        3.99
 Department of Energy                                                       Red        2.66
 Department of Homeland Security                                            Red        2.34
 Department of the Interior                                                 Red        1.85
 Tennessee Valley Authority                                                 Red        1.02
 Smithsonian Institution                                                    Red        0.87
 Department of Health and Human Services                                    Red        0.73
 Department of Transportation                                               Red        0.65
 Department of Defense                                                      Red        0.30
 Department of Labor                                                        Red        0.08
 U.S. Army Corps of Engineers                                               Red        0.00

 Total Number of Agencies in Green Status                                    5        25.00
 Total Number of Agencies in Yellow Status                                   2        10.00
 Total Number of Agencies in Red Status                                     13        65.00
 Total Departments                                                          20

Source: Office of Management and Budget. (See next page for table notes.)




                                                                                              7
Table Notes:

* According to the scorecard, a “green” rating means that the agency “demonstrates implementation of
Guiding Principles for Federal Leadership in High Performance and Sustainable Buildings (GP) for new,
existing and leased buildings; and is on track to meet 15% goal by 2015 by reporting that at least 9% of
buildings >5,000 GSF [gross square feet] meet GP as reported in the Federal Real Property Profile (FRPP).”

A “yellow” rating means that the agency “incorporates [GPs] into all new design contracts for construction,
major renovations and leases and at least 9 percent of GSF of its building inventory over 5,000 GSF meets GP
as reported in FRPP.”

Finally, a “red” rating indicates that the agency “cannot demonstrate compliance with GP on new
construction, major renovations, or leases; and/or less than 9 percent of building inventory, either by number
of buildings or GSF, over 5,000 GSF meets GP as reported in FRPP.”

** While the National Aeronautics and Space Administration and the Department of the Treasury exceeded
the overall 2013 goal of 9 percent, they received a “yellow” score because they did not apply the Guiding
Principles to their existing building inventory and could not demonstrate that they were on track to meet the
15 percent goal for 2015.




                                                                                                             8
